       U.S. House of Representatives
        Committee on Ways and Means
        Subcommittee on Social Security




            Statement for the Record

   Hearing on Social Security’s Death Records


    The Honorable Patrick P. O’Carroll, Jr.
Inspector General, Social Security Administration

                February 2, 2012
Good morning, Chairman Johnson, Ranking Member Becerra, and members of the Subcommittee. It is a
pleasure to appear before you, and I thank you for the invitation to testify today. I have appeared before
Congress many times to discuss issues critical to the Social Security Administration (SSA) and the services
the Agency provides to American citizens; I appeared before the Subcommittee last week to discuss SSA’s
Disability Insurance program. Today, we are discussing SSA’s Death Master File (DMF) and the Agency’s
process for distributing death records.

SSA has, on the Numident—the Agency’s master database of Social Security number (SSN) holders—a
record of reported deaths. Because of a 1978 Freedom of Information Act (FOIA) lawsuit—Perholtz vs.
Ross—SSA in 1980 was required to make available to the public death records that included the SSN, the
last name, and the date of death of deceased number holders; the result was the creation of the DMF, an
extract of Numident data. Each DMF record usually includes the following: SSN, full name, date of birth,
and date of death. The file contains about 85 million records, and it adds about 1.3 million records each
year. SSA receives death information from many sources, including family members, funeral homes, and
some (but not all) States. SSA does not have a death record for all deceased individuals, thus SSA does not
guarantee the file’s veracity. A person’s absence from the file does not guarantee the person is alive.

SSA provides the DMF to the Department of Commerce’s National Technical Information Service (NTIS),
a cost-recovery agency, which, in turn, sells DMF data to public and private industries—government,
financial, investigative, credit reporting, and medical customers. Those customers use the data to verify
death and to prevent fraud, among other uses. The DMF thus contains more information than required by
the Perholtz ruling. 1

The public distribution of SSA’s death records and personally identifiable information (PII) raises concerns
related to SSN misuse and identity theft. Your Subcommittee has discussed ways to improve SSN
protection with SSA and the Office of the Inspector General (OIG) before, but with SSN use widespread
throughout government programs and financial transactions, and technology constantly evolving, the threat
of SSN misuse and identity theft persists. We in the OIG are well aware of the central role the SSN plays in
American society, and part of our mission is to protect its integrity. Therefore, while limiting or
discontinuing the DMF’s availability is ultimately a legislative and policy decision for the Congress and
SSA to make, the OIG has long taken the position that to the extent possible, public access to the DMF
should be limited to that required by law, and that all possible steps should be taken to ensure its accuracy.
We have made numerous recommendations to this effect.

The Congress has recognized the importance of this issue, as current bills for consideration address access
to the DMF. Chairman Johnson and several members of your Subcommittee in November 2011 introduced
the Keeping IDs Safe Act, which would end the sale of the DMF. While some government and law
enforcement agencies would still have access to the file to combat fraud, the bill would help protect the
death data of all number holders.

1
 In November 2011, SSA made a change to DMF records it provides to NTIS. The Social Security Act
prohibits SSA from disclosing State death records the Agency receives through its contracts with the States,
except in limited circumstances. SSA thus removed about 4.2 million State death records from the DMF.
SSA currently distributes Numident data under agreements with eight government agencies, including the
Centers for Medicare & Medicaid Services and the Internal Revenue Service.


                                                      1
Another House bill, introduced in October 2011 to prevent identity theft and tax fraud, calls for the
Commerce Department to develop a certification program for individuals to complete before accessing the
DMF. According to the proposal, any certified person who disclosed DMF data to another individual, or
any certified person who misused the data, would be fined $1,000 for each illegal disclosure or use.

The DMF data has important and productive uses. Medical researchers and hospitals track former patients
for their studies; investigative firms use the data to verify deaths related to investigations; and pension
funds, insurance organizations, and Federal, State, and local governments need to know if they are sending
payments to deceased individuals. The financial community and State and local governments can identify
and prevent identity theft by running financial and credit applications against the DMF. However, in the
form in which the DMF is currently distributed, methods exist for individuals to misuse SSNs and commit
identity theft. We have made recommendations to SSA that would improve the protection of PII available
in the DMF through both decreased inclusion of data and increased accuracy; SSA has agreed with some of
our recommendations and disagreed with others.

Our March 2011 report, Follow-up: Personally Identifiable Information Made Available to the Public via
the Death Master File, examined whether SSA took corrective actions to address recommendations we
made in a June 2008 report on the DMF. In the June 2008 report, we determined that, from January 2004
through April 2007, SSA’s publication of the DMF resulted in the potential exposure of PII for more than
20,000 living individuals erroneously listed as deceased on the DMF. In some cases, these individuals’ PII
was still available for free viewing on the Internet—on ancestry sites like genealogy.com and
familysearch.org—at the time of our report.

In June 2008, we recommended that SSA:

   1. Work with the Commerce Department to implement a risk-based approach for distributing DMF
      information, such as implementing a several-month delay in the release of DMF updates, so that
      SSA could correct erroneous death entries;
   2. Limit the amount of information included on the DMF to the absolute minimum required, and
      explore alternatives to the inclusion of an individual’s full SSN;
   3. Initiate required breach notification procedures upon learning that the Agency mistakenly included
      living individuals’ PII in the DMF; and
   4. Provide appropriate notification to living individuals whose PII was released in error.
In our March 2011 report, we found that SSA had taken actions on recommendations 3 and 4. SSA
implemented procedures to report erroneous death entry-related PII breaches to the Department of
Homeland Security’s U.S. Computer Emergency Readiness Team each week. The Agency also hired a
contractor to provide ongoing reviews of DMF exposure related to thousands of individuals whose PII was
inadvertently exposed from July 2006 through January 2009. The contractor evaluated available data for
patterns that could identify organized misuse, and according to SSA, as of March 2011, the contractor
identified no PII misuse. Thus, SSA did not provide breach notifications to any individual number holders.
We recommended that SSA notify all individuals whose PII was exposed, regardless of the detection of PII
misuse.


                                                     2
SSA did not take actions on recommendations 1 and 2. SSA did not implement a delay in the release of
DMF updates, as the Agency indicated that public and private organizations rely on the DMF to combat
fraud and identity theft. To be effective, those organizations must have immediate and up-to-date
information, SSA said. The Agency also did not attempt to limit the amount of information included on the
DMF, and it did not explore alternatives to the inclusion of an individual’s full SSN, citing the Perholtz
consent judgment and potential litigation under FOIA. SSA added that a deceased individual does not have
a privacy interest, according to FOIA.
Our March 2011 follow-up review revealed that in addition to the recommendations with which SSA did
not agree, several issues remained:
    SSA continued to, inadvertently, expose the PII of thousands of living individuals each year,
     because the Agency released death information without a short delay to identify and correct most
     death-report errors.
    SSA’s efforts to delete erroneous death entries from the DMF did not completely mitigate the
     exposure of living individuals’ PII. At the time of the report, we searched several ancestry
     Websites, like familysearch.org, and there were instances in which living individuals’ PII remained
     accessible. This likely occurred because the Website was not timely processing DMF updates.
    SSA continued to disclose far more detailed PII in the DMF (including first name, middle name,
     and date of birth) than required under the original Perholtz consent judgment. We continue to
     believe that reducing the amount of detailed PII included in the DMF would allow the continued
     legitimate use of valid death information, while at the same time limiting the inadvertent PII
     exposure of living individuals.
According to SSA, there are about 1,000 cases each month in which a living individual is mistakenly
included in the DMF. SSA said that when the Agency becomes aware it has posted a death report in error,
SSA moves quickly to correct the situation, and the Agency has not found evidence of past data misuse.
However, we remain concerned about these errors, because erroneous death entries can lead to benefit
termination and cause severe financial hardship and distress to affected individuals. We also have concerns
that DMF update files, some with active SSNs, are a potential source of information that would be useful in
perpetrating SSN misuse and identity theft, including the theft of child identities. DMF updates can reveal
to potential criminals the PII of individuals who are still alive.
We have several other ongoing reports related to DMF data:
    In Title II Deceased Beneficiaries Who Do Not Have Death Information on the Numident, we have
     identified about 1.2 million Title II beneficiaries who have a date of death on the Master
     Beneficiary Record (MBR), but they do not have death information on SSA’s Numident. SSA uses
     death information from the Numident to create the DMF. If a person knew an individual was
     deceased and that the death record was not on the Numident, the person could use the deceased’s
     information to fraudulently file for benefits or credit.
    In Deceased Beneficiaries Who Have Different Dates of Death on the SSA’s Numident and Payment
     Records, we identified about 11,000 deceased beneficiaries who have a date of death on the
     Numident that differs by at least one month from the date of death on the MBR or Supplemental
     Security Income Record (SSR). We also identified 39 cases in which the date discrepancies resulted
     in potential improper payments of more than $72,000.

                                                     3
    In Using Medicare Claim Data to Identify Deceased Beneficiaries, we will match SSA beneficiary
     records with CMS databases containing Medicare non-utilization information to determine if the
     beneficiaries are alive.
We in the OIG also remain concerned with the overall accuracy of SSA’s death data. SSA receives about
2.5 million death reports each year from many sources, including family members and funeral homes. In
addition, to identify improper payments to deceased beneficiaries, SSA has computer matches of death
information from other Federal Agencies, such as the Department of Veteran Affairs. However, before SSA
can terminate benefits based on a computer match, it must verify the accuracy of the death information.
SSA has worked with the National Association for Public Health Statistics and Information Systems to
develop standards and guidelines for a nationwide system of electronic death registration (EDR), and
Congress authorized the Department of Health and Human Services to provide grants to help States set up
their systems. Under EDR, SSA verifies the decedent’s name and SSN with the State at the beginning of
the death registration process, thereby allowing SSA to take immediate action to terminate benefits without
needing to verify the accuracy of the death report. Currently 32 States, the District of Columbia, and New
York City have implemented EDR. SSA expects to work with eight additional States that plan to
implement EDR over the next two years.
We have conducted several audits in recent years related to the accuracy of DMF data:
    In a September 2011 report, we found that SSA paid $644,000 in monthly survivor benefits to
     family members of 642 living (but mistakenly listed on the DMF) wage earners, even though the
     Agency had deleted the wage earners’ death entries from the DMF, and SSA’s Numident file
     indicated the wage earners were still alive.
    An April 2011 report found SSA needed to improve controls to ensure it takes timely and proper
     actions to resolve death information on the Numident for suspended Title II beneficiaries.
    We found that SSA issued payments to deceased beneficiaries after recording valid dates of death
     on the beneficiaries’ Numident record in June 2009.
    In February 2009, we found that about 98 percent of erroneous death entries on the DMF were
     death reports from non-State sources. Therefore, even if all States were to submit death reports via
     EDR, there could still be some erroneous death entries on the DMF. We also found that some death-
     reporting errors occurred for EDR States.
In conclusion, the OIG has conducted, and continues to conduct, significant audit work to identify methods
SSA could implement to protect PII and death data and to improve the accuracy of its death reporting.
While we encourage efforts to limit public access to this data through legislative or policy changes (such as
the Keeping IDs Safe Act), barring such changes, SSA should implement a risk-based approach for
distributing DMF information, and the Agency should attempt to limit the amount of information included
on the DMF. These actions would protect PII and potentially limit the misuse and abuse of SSNs and
identity theft.
We will continue to provide information to SSA’s decision-makers and to your Subcommittee, and we look
forward to assisting in this effort and future efforts. Thank you again for the invitation to be here today. I
would be happy to answer any questions.


                                                      4
